         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Site Inspection Report



       American Recovery and
       Reinvestment Act Site Inspection
       of Sewer System Improvement
       Projects, City of Parma, Ohio

       Report No. 11-R-0083

       February 2, 2011
Report Contributors: 	                           Safiya Chambers
                                                 Snehal Nanavati
                                                 Michael Rickey




Cover photo: American Recovery and Reinvestment Act of 2009 construction activity at the 

             Bradenton project site, City of Parma, Ohio. (EPA OIG photo)

                       U.S. Environmental Protection Agency 	                                            11-R-0083
                                                                                                   February 2, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review              American Recovery and Reinvestment Act
The U.S. Environmental              Site Inspection of Sewer System Improvement
Protection Agency, Office of        Projects, City of Parma, Ohio
Inspector General, conducts site
visits of American Recovery and      What We Found
Reinvestment Act of 2009
clean water and drinking water      We conducted an unannounced site inspection of the Bradenton, Grantwood,
projects. We selected the           and Manhattan Avenue sewer system improvement projects in the City of
Bradenton, Grantwood, and           Parma, Ohio, from June 28 through July 1, 2010. We toured the projects,
Manhattan Avenue sewer system       interviewed city representatives and engineering and contractor personnel, and
improvement projects in the City    reviewed documentation related to Recovery Act requirements.
of Parma, Ohio, for review.
                                    Based upon our site inspection, no problems were identified that would require
Background
                                    action from the city, the State of Ohio, or the U.S. Environmental Protection
                                    Agency.
The city received three loans for
the Bradenton, Grantwood, and
Manhattan Avenue projects
totaling $4,443,102 from the Ohio
Environmental Protection Agency
and the Ohio Water Development
Authority under the Clean Water
State Revolving Fund program.
The loans included $2,221,551 in
principal forgiveness. The city
will use these funds to eliminate
contamination by providing
sewer service to unsewered
properties.


For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110202-11-R-0083.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                         February 2, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Inspection of
          Sewer System Improvement Projects, City of Parma, Ohio
          Report No. 11-R-0083


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Susan Hedman
               Regional Administrator, Region 5
               U.S. Environmental Protection Agency


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. The report summarizes the results of our site inspection
of the City of Parma, Ohio, sewer system improvements projects.

We performed this site inspection as part of our responsibility under the American Recovery and
Reinvestment Act of 2009. The purpose of our site inspection was to determine the city’s
compliance with selected requirements of the Recovery Act pertaining to the Clean Water State
Revolving Fund program. The Ohio Environmental Protection Agency, together with the Ohio
Water Development Authority, approved the city’s three projects. The city received three loans
for the Bradenton, Grantwood, and Manhattan Avenue projects totaling $4,443,102. The loans
included $2,221,551 in Recovery Act funds for principal forgiveness.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rate in effect at the time – is $118,106.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://epa.gov/oig. If you or your staff have any questions
regarding this report, please contact Melissa Heist, Assistant Inspector General for Audit, at
(202) 566-0899 or heist.melissa@epa.gov; or Robert Adachi, Product Line Director, at
(415) 947-4537 or adachi.robert@epa.gov.
Purpose
            The purpose of our unannounced site inspection was to determine whether
            the City of Parma, Ohio, had complied with selected requirements of the
            American Recovery and Reinvestment Act of 2009, P.L. 111-5, pertaining
            to the Clean Water State Revolving Fund program.

Background

            The city received three loans for the Bradenton, Grantwood, and
            Manhattan Avenue projects totaling $4,443,102 from the Ohio
            Environmental Protection Agency and Ohio Water Development
            Authority under the Clean Water State Revolving Fund program. The
            Recovery Act provided 50 percent of the funding through principal
            forgiveness. The projects are designed to eliminate contamination by
            providing sewer service to unsewered properties.

Scope and Methodology
            Due to the time-critical nature of Recovery Act requirements, we did not
            perform this assignment in accordance with generally accepted
            government auditing standards. Specifically, we did not perform certain
            steps that would allow us to obtain information to assess the city’s internal
            controls and any previously reported audit concerns. As a result, we do not
            express an opinion on the adequacy of the city’s internal controls or
            compliance with all federal, state, or local requirements.

            We conducted an unannounced site inspection on June 28–July 1, 2010.
            During our inspection, we:

               1. 	 Toured the project
               2. Interviewed city, engineering, and contractor personnel
               3. 	 Reviewed documentation maintained by the city, its engineer, and
                    project contractors on the following matters:
                            a. 	 Buy American requirements under section 1605 of the
                                 Recovery Act
                            b. 	 Wage rate requirements under section 1606 of the
                                 Recovery Act
                            c. 	 Limits on funds and reporting requirements under
                                 sections 1604 and 1512 of the Recovery Act
                            d. 	 Contract procurement




11-R-0083                                                                              1
Results of Site Inspection
            Based upon our site inspection, nothing came to our attention that would
            require action by the U.S. Environmental Protection Agency, the State of
            Ohio, or the city. We have summarized our results in the following
            sections.

            Buy American Requirements

            Although we did not find specific compliance problems related to the Buy
            American requirements at the three projects, the process followed by the
            city to comply with the Buy American requirements of the Recovery Act
            needed improvement.

            The city included the U.S. Environmental Protection Agency, Office of
            Water, guidance, Implementation of Buy American Provisions of P.L.
            111-5, The American Recovery and Reinvestment Act of 2009, dated April
            28, 2009, in the specifications and contract documents for each project.
            The specifications and contract documents were available for bid
            preparation and incorporated into each construction contract. However,
            neither the city nor its contractors maintained documentation to support
            compliance with Buy American requirements. The engineering
            consultant’s contract administrator stated that he researched the
            manufacturers’ websites to verify the plant locations. When we discussed
            this matter with the respective construction contractors’ representatives,
            they were not aware of any need to obtain documentation to support Buy
            American compliance.

            Subsequent to our visit, the contract administrator obtained manufacturer
            certifications to verify compliance with Buy American requirements.
            These certifications supported the Buy American requirements for the
            materials listed on the Submittal Logs that were used by the contract
            administrator to approve materials before installation.

            Based on our review of the manufacturers’ certification and a visual
            inspection of a small inventory of pipes and fittings, we take no exception
            to compliance with the Buy American requirements at the three projects.

            Wage Rate Requirements

            We conclude that construction contractors complied with the wage rate
            provision of the Recovery Act. We interviewed all employees at the
            construction sites during our site visit to collect information on
            compensation, job duties, training, and qualifications. We conducted an
            analysis to compare the wage rates on the certified payroll to the wage



11-R-0083                                                                               2
            rates required for compliance. All employees were paid wages above or
            equal to the prescribed wage rates.

            Limits on Funds and Reporting

            We reviewed the city’s loan documentation and visited the construction
            sites to ensure the city was in compliance with section 1604 of the
            Recovery Act, which states that no Recovery Act funds can be used for
            any casino, other gambling establishment, aquarium, zoo, golf course, or
            swimming pool. We did not identify any issues of concern.

            We concluded that the city was in compliance with its responsibilities
            under section 1512 of the Recovery Act which requires reports on the use
            of funds and the number of jobs created or retained. We obtained copies of
            quarterly reports for each project prepared by the contract administrator
            and submitted to the Ohio Environmental Protection Agency on behalf of
            the city. Based on our review of the reports, the information met Recovery
            Act requirements.

            Contract Procurement

            We did not identify any issues of concern with respect to contract
            procurement. Parma publicly advertised the engineer’s project estimate
            and requested bids for each project. Buy American and wage rate
            requirements were included in the specifications and contract documents
            and incorporated into the contracts by reference. There were several
            bidders for each project, and the city awarded the contract to the lowest
            qualified bidder. All contract amounts were less than the engineer’s
            estimate.

            Parma used Quality Control Inspection, Inc., to provide year-round
            construction support services. According to the assistant city engineer, the
            city requests proposals for year-round engineering support services every
            2 to 3 years, when the engineering consultant implements a rate change.
            The consultant has been working for the city for approximately 15 years.

Recommendations
            We have no recommendations.

Response and Office of Inspector General Comment
            As we have no recommendations, we did not require or receive comments
            to the draft report. We held an exit conference on January 21, 2011.



11-R-0083                                                                               3
                             Status of Recommendations and
                               Potential Monetary Benefits

                                                                                                             POTENTIAL MONETARY
                                               RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                 Planned
Rec.    Page                                                                                    Completion   Claimed    Agreed To
No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                               No recommendations




   1   O = recommendation is open with agreed-to corrective actions pending
       C = recommendation is closed with all agreed-to actions completed
       U = recommendation is undecided with resolution efforts in progress



   11-R-0083                                                                                                                4
                                                                        Appendix A

                                 Distribution
Office of the Administrator
Regional Administrator, Region 5
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Audit Followup Coordinator, Region 5
Public Affairs Officer, Region 5
Director, Water Division, Region 5
Chief, State and Tribal Programs Branch, Section 2, Region 5
Director, Ohio Environmental Protection Agency
Mayor, City of Parma, Ohio
Assistant City Engineer, City of Parma, Ohio




11-R-0083                                                                        5
